TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Final Voucher Audit Contract Number
                                TIRNO-95-D-00061,
                           Delivery Order Number 0011



                                         September 2005

                             Reference Number: 2005-1C-177




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 29, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Final Voucher Audit Contract Number TIRNO-95-D-00061, Delivery
                             Order Number 0011 (Audit # 20051C0243)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s final voucher
 number 14, issued under contract number TIRNO-95-D-00061, delivery order number 0011.
 The purpose of the examination was to determine the allowable cost and fee under the contract
 delivery order. According to the DCAA, the cost-plus-fixed fee contract provided for Year 2000
 Certification Project Support. Work commenced on September 23, 1997, and was completed on
 September 28, 1998.
 According to the DCAA, the final voucher number 14 issued under the contract delivery order is
 acceptable for processing. The claimed costs for Fiscal Years 1997 and 1998 represent costs that
 are considered allowable under the contract and, therefore, are reimbursable. The DCAA stated
 the contractor’s accounting and billing systems are generally considered adequate to ensure final
 vouchers are based on allowable cost and fee data. The DCAA also stated there are no
 outstanding internal control deficiencies affecting these systems.
 The information in this report should not be used for purposes other than those intended without
 prior consultation with the Treasury Inspector General for Tax Administration regarding their
 applicability.
                   Final Voucher Audit Contract Number TIRNO-95-D-00061,
                                 Delivery Order Number 0011



If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                 2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
